                 U.S. Department of the Interior
                 Office of Inspector General




Cost Ceiling
Should Not be
Used as Basis
for
Congressional
Appropriations



                                      Jordanelle Reservoir of the Bonneville Unit
                                            Photo Courtesy Bureau of Reclamation



                            Construction Cost Ceiling
                                      Bonneville Unit
                                Central Utah Project



                                                   Report No. 01-I-20
                                                       October 2000
              UNITED STATES DEPARTMENT OF THE INTERIOR
                                OFFICE OF INSPECTOR GENERAL
                                       Western Region Audits
                                   2800 Cottage Way, Room E-2712
                                     Sacramento, California 95825




7430
October 24, 2000

Memorandum

To:          Assistant Secretary for Water and Science

From:        Michael P. Colombo
             Regional Audit Manager, Western Regional Office

Subject:     Final Report on the Bureau of Reclamation’s Calculation of the Authorized
             Construction Cost Ceiling for the Bonneville Unit, Central Utah Project
             (No. 01-I-20)

The attached report presents the results of our review of the Bureau of Reclamation’s
(BOR) calculation of the $1.4 billion construction cost ceiling for the Bonneville Unit, a
multipurpose water development unit within the Central Utah Project. Your July 21, 2000
response disagreed with our conclusion that the cost ceiling was not reliable and stated that
the Central Utah Project Completion Act (CUPCA) Office could use BOR’s calculation as
the basis for requesting additional appropriations to complete the Central Utah Project.
The response also provided comments on our findings and stated that the Program Director
would inform Congress of our “audit report findings,” along with the underlying
disagreements of the CUPCA Office and BOR.

We modified our report based on your comments, but continue to believe that the cost
ceiling is not reliable. We also believe that it is appropriate for Congress to determine
whether the current cost ceiling should be used as a basis for additional appropriations.
Therefore, we are referring the recommendation to the Assistant Secretary for Policy,
Management and Budget to be tracked as unresolved until Congressional action is taken on
this issue.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to Congress on all audit reports issued, the monetary impact of audit findings,
actions taken to implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

If you have any questions or comments regarding our report, please call me at
(916) 978-5653.



Attachment
Executive Summary
Bonneville Unit Construction Cost Ceiling

                              Congress authorized the Bonneville Unit (Bonneville) in
                              1956 as a multipurpose water development within the
                              Central Utah Project. To control the Federal funds
                              invested in water projects, Congress establishes a
                              construction cost ceiling, which represents the maximum
                              amount that can be spent for project construction without
                              additional Congressional authorization. Congress also
                              allows the authorized ceiling to be updated annually for
                              changes resulting from economic factors (usually inflation).
                              The process of updating the cost ceiling is called indexing.

                              In 1972, Congress first authorized the Bureau of
                              Reclamation (BOR) to index Bonneville’s cost ceiling
                              annually. As of August 1998, BOR calculated
                              Bonneville’s authorized cost ceiling at $1.4 billion,
                              consisting of expenditures of about $1.3 billion and a
                              remaining ceiling available for appropriation of about
                              $103.5 million.

                              In 1999, the Program Director of the Central Utah Project
                              Completion Act (CUPCA) Office (see Glossary),
                              established by Congress to oversee completion of
                              Bonneville, requested that our office review the accuracy
                              and reliability of BOR’s calculation of Bonneville’s cost
                              ceiling.

Results In Brief              We concluded that BOR’s $1.4 billion cost ceiling
                              calculation for Bonneville was not reliable and should
                              therefore not be used as the basis for requesting additional
BOR Calculation               Congressional appropriations for the following three
of Cost Ceiling Unreliable:   reasons:

  1. BOR Records Were         BOR records were insufficient to support historical
     Insufficient             amounts included in and adjustments made to the cost
                              ceiling computations over the life of Bonneville. For
                              example, BOR records were no longer available to
                              support:

                                # Expenditures from 1966 through 1997 classified as
                                    noncontract costs, which totaled $280 million (about
                                    21 percent of total expenditures of $1.3 billion);
                                # Expenditures from 1966 through 1974;

                                                                                             i
                                    # Cost ceiling calculations from 1972 through 1982
                                      performed by BOR’s Upper Colorado Region;

                                    # The majority of adjustments made by BOR since 1996,
                                      which resulted in $103.5 million of reported available cost
                                      ceiling, and

                                    # Base dates and the amounts (see Glossary) listed to index
                                      costs.

                                  BOR incorrectly continued to index Bonneville’s unbuilt
      2. BOR Continued to Index
                                  commercial power and irrigation features that it was no longer
         Unbuilt Commercial       authorized to construct after Congress significantly curtailed
         Power and Irrigation     BOR’s involvement in the construction of Bonneville in 1992.
         Features                 The continued indexing of these features for inflation incorrectly
                                  increased Bonneville’s cost ceiling by about $63 million.
      3. BOR Did Not Record
                                  BOR did not record $14.6 million of expenditures against
         Expenditures of $14.6    Bonneville’s cost ceiling, thereby overstating the ceiling available
         Million                  for appropriation by that amount.

     History of Concerns          We also noted that similar concerns about the reliability of
                                  BOR’s cost ceiling calculations had been expressed in
     About Reliability of         independent General Accounting Office (GAO) and
     BOR’s Cost Ceiling           Congressional reports over the past 25 years. As early as 1975,
                                  a GAO report questioned the reliability of BOR’s cost ceiling
     Calculations                 calculation procedures and practices. Congressional committee
                                  reports in 1976, 1988, and 1992 were also critical of BOR’s
                                  procedures and practices and the reliability of cost ceiling
                                  calculations. In addition, BOR, as the result of internal reviews,
                                  made major adjustments in Bonneville’s cost ceiling calculations.
                                  These adjustments had the overall effect of significantly
                                  adjusting the authorized cost ceiling from no funds being
                                  available for appropriation in 1994 to $103.5 million being
                                  available in 1998.

     Other Issues Related         In addition, we noted two other issues related to adjustments to
                                  BOR’s cost ceiling for Bonneville that deserve mention (see
     to Bonneville Cost           Appendix 4).
     Ceiling Reliability          # BOR increased Bonneville’s cost ceiling by $62.4 million
                                    for general legislation costs (see Glossary) for road
                                    construction. While it is clear that BOR had the authority
                                    to expend funds for these roads, our research did not
                                    identify any authority for BOR to increase the authorized
                                    cost ceiling.

                                  # BOR increased Bonneville’s cost ceiling by $67.6 million
                                    within the authority of Public Laws 100-563 and 102-575.
                                    We noted, however, that the increases were not consistent


ii
                           with the information BOR provided to the Congress in
                           support of the legislation.

                      We recommended that the Program Director of the CUPCA
Recommendation        Office discontinue using BOR’s cost ceiling calculation for the
                      Bonneville Unit as a basis for requesting additional
                      appropriations. If BOR’s calculation is used, the Program
                      Director should inform Congress that the cost ceiling calculation
                      is not reliable.

Assistant Secretary   On July 21, 2000, the Acting Assistant Secretary for Water and
                      Science provided a written response to our draft report
Response              (Appendix 7), which included comments from the Program
                      Director of the CUPCA Office and BOR’s Commissioner. In
                      the response, the Assistant Secretary disagreed with our findings
                      and stated that the CUPCA Office would continue to use BOR’s
                      calculation as the basis for requesting additional appropriations.
                      The Assistant Secretary also stated that the Program Director
                      would inform Congress of our “audit report findings,” along with
                      the underlying disagreements of the CUPCA Office and BOR.

OIG Reply             We continue to differ with the Assistant Secretary on the
                      reliability of the cost ceiling and the issues raised by our review.
                      We also believe that Congress should be informed and determine
                      whether the current cost ceiling should be used as a basis for
                      additional appropriation. Therefore, we will refer the
                      recommendation to the Assistant Secretary for Policy,
                      Management and Budget to be tracked as unresolved until
                      Congressional action is taken on this issue (Appendix 8).




                                                                                             iii
iv
Contents
                                                                                                Page

           Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

           Results of Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

           History of Concerns About BOR
           Cost Ceiling Calculations . . . . . . . . . . . . . . . . . . . . . . . 5

           Other Issues Related to Bonneville
           Cost Ceiling Reliability . . . . . . . . . . . . . . . . . . . . . . . . . 6

           Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

           Appendices
             1 Scope of Review . . . . . . . . . . . . . . . . . . . . . . . . .                .. 8
             2 Prior Reports Related To Calculation of
                 Authorized Construction Cost Ceilings . . . . . . . . .                        . . 10
             3 History of Concerns About and Adjustments
                 to BOR Cost Ceiling Calculations . . . . . . . . . . . .                       . . 13
             4 Issues Related to Bonneville Cost Ceiling
                 Increases, Comments by CUPCA Office Program
                 Director and BOR Commissioner, and
                 OIG Reply . . . . . . . . . . . . . . . . . . . . . . . . . . . .              . . 16
             5 Excerpt from Senate Report No. 102-267 . . . . . . .                             . . 25
             6 Computations of Cost Ceiling Under
                 Public Laws 84-485 and 92-370 . . . . . . . . . . . .                          . . 26
             7 Assistant Secretary Response . . . . . . . . . . . . . . .                       . . 27
             8 Status of Audit Recommendation . . . . . . . . . . . . .                         . . 32

           Glossary . . . . . . . . . . . . . . . . . . . . . . . . . . Inside Back Cover

           Abbreviations:

              BOR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Bureau of Reclamation
              CRSP . . . . . . . . . . . . . . . . . . . . . . Colorado River Storage Project
              CUPCA . . . . . . . . . . . . . . . Central Utah Project Completion Act
              CUWCD . . . . . . . . . . . Central Utah Water Conservancy District
              GAO . . . . . . . . . . . . . . . . . . . . . . . . . . . General Accounting Office
              OIG . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Inspector General
              Bonneville . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Bonneville Unit




                                                                                                           v
Background                               Congress authorized construction of the Bonneville Unit
                                         (Bonneville) in 1956 as part of the Central Utah Project,
                                         which in turn is part of the larger, multistate Colorado
     Bonneville Authorized               River Storage Project (CRSP)1 (see Glossary).
     in 1956                             Bonneville is a multipurpose water development,
                                         consisting of six dams; eight major diversion dams; and 65
                                         miles of aqueducts, tunnels, and pipelines, to supply water
                                         for irrigation and for municipal, industrial, fish and
                                         wildlife, and recreational uses in central and northeastern
                                         Utah. BOR began constructing Bonneville in 1966.

     Congress Controls Federal           Congress controls and monitors the Federal money spent in
     Expenditures by Cost                developing water projects, including Bonneville, by
     Ceilings                            establishing an “authorized cost ceiling,” which is the
                                         maximum amount of money that Congress will appropriate
                                         to construct a project. Congress bases the amount of the
                                         authorized cost ceiling, in part, on cost estimates prepared
                                         by the Federal agency responsible for constructing the
                                         project, in this case BOR. Since a water project can take
                                         many years to come on-line, from project authorization to
                                         completion of construction, Congress allows the authorized
                                         cost ceiling to be updated annually for changes resulting
                                         from economic factors, usually inflation. The updating
                                         process is called indexing.

     BOR Increases Cost                  Congress authorized BOR to begin indexing Bonneville’s
     Ceiling Annually for                authorized cost ceiling in 1972 and gave BOR discretion in
     Inflation                           establishing and applying the procedures and
                                         methodologies to be used in the indexing process. As
                                         detailed in BOR regulations, BOR’s procedures include:

                                           # Indexing the amounts not expended based on
                                                BOR-developed indices for the types of project elements,
                                                such as land, tunnels, dams, roads, and canals, and

                                           # Comparing the updated authorized cost ceiling with the
                                                total estimated Federal obligations required to complete the
                                                project to determine the ceiling’s adequacy. If equal to or
                                                greater than the estimated obligations to complete the
                                                project, the updated ceiling is adequate. If less than the
                                                estimated obligations, the updated ceiling is inadequate,
                                                and BOR must either (1) restructure the project within the
                                                updated authorized cost ceiling amount or (2) inform

 1
  In 1956, Public Law 84-485 authorized $760 million for CRSP, but did not specify the amounts available
 for each of the participating water projects or include any provisions for indexing the authorized cost
 ceiling for inflation. From 1956 to 1972, BOR expended about $64.5 million for Bonneville.



                                                                                                               1
                                      Congress of the need for additional cost ceiling
                                      authorization to complete the project.

                                In 1992, Congress transferred the majority of the
                                responsibility and funding authority for completing the
                                remaining planning and construction of the Central Utah
                                Project from BOR to the Central Utah Water Conservancy
                                District (CUWCD) (see Glossary). Congress also
                                established the Central Utah Project Completion Act
                                (CUPCA) Office under the auspices of the Department of
                                the Interior, to oversee the completion of the Central Utah
                                Project.

                                In its Fiscal Year 1998 Annual Report, BOR stated that it
                                had completed its portion of Bonneville, including the
                                infrastructure for the municipal and industrial water and
                                agricultural irrigation systems and recreational facilities, at
                                a cost of $1.3 billion. CUWCD is continuing construction
                                of Bonneville features for which it is responsible,
                                including the distribution infrastructure for the agricultural
                                irrigation system.

                                As of August 1998, BOR’s calculation of the $1.4 billion
                                construction cost ceiling for Bonneville consisted of
                                expenditures of about $1.3 billion and a remaining
                                available ceiling of about $103.5 million. In 1999, at the
                                request of the Program Director of the CUPCA Office, we
                                reviewed BOR’s computation of Bonneville’s authorized
                                cost ceiling. The scope of our review is detailed in
                                Appendix 1, and related reports are summarized in
                                Appendix 2.

    Results of Review           We concluded that BOR’s calculation of a $1.4 billion cost
                                ceiling, consisting of expenditures of about $1.3 billion
                                and a remaining available ceiling of about $103.5 million,
      Cost Ceiling              was unreliable and should not be used as the basis for
      Calculations Unreliable   requesting additional Congressional appropriations for the
                                following three reasons: (1) BOR records were
                                insufficient to support historical amounts included in and
                                adjustments made to cost ceiling computations over the
                                years; (2) BOR continued to index unbuilt power and
                                irrigation features that it was no longer authorized to
                                construct after 1992, which incorrectly increased
                                Bonneville’s cost ceiling and the amount available for
                                appropriation by about $63 million; and (3) BOR did not
                                record expenditures of $14.6 million against Bonneville’s
                                cost ceiling, thereby overstating the available ceiling.


2
    1. BOR Records Were                  The insufficiency of records was a major problem in
       Insufficient                      evaluating BOR’s cost ceiling calculations. We found that
                                         BOR’s Upper Colorado Region, which calculates
                                         Bonneville’s cost ceiling, did not have sufficient records to
                                         fully support historical amounts included in and
                                         adjustments made to the cost ceiling computations for
                                         Bonneville. Records were no longer available to support
                                         the following:

                                            # Expenditures classified as noncontract costs from 1966
                                              through 1997. Regional personnel told us that they had
                                              distributed these costs to numerous plant accounts and
                                              could no longer identify a particular transaction or provide
                                              the original supporting documentation. These costs totaled
                                              $280 million or about 21 percent of total Bonneville
                                              expenditures. This matter alone sufficiently restricted our
                                              testing so as to preclude us from attesting to the reliability
                                              of the cost ceiling.

                                            # Expenditures from 1966 through 1974.

                                            # Regional cost ceiling calculations from 1972 through 1982.

                                            # The majority of adjustments made by BOR since 1996,
                                              which resulted in $103.5 million of reported available cost
                                              ceiling.

                                            # The base date used by BOR to index the $45.5 million
                                              cost ceiling increase authorized by Congress in 1988.

                                            # The base amounts used for indexing the $355.9 million
                                              increase to Bonneville’s cost ceiling authorized by
                                              Congress in 1972. Of this amount, Regional personnel
                                              allocated $275 million to 11 individual plant accounts2 and
                                              $80.9 million to noncontract costs. Personnel, however,
                                              could not provide documentation to support the base
                                              amounts, and as such we had no assurance that


                                                the proper base amounts were used when costs for the
                                                individual plant accounts were indexed.
                                                (See Glossary for definition of noncontract costs and
                                                base date and base amount.)



2
 The $275 million consisted of $85.8 million for earth dams, $44.4 million for tunnels, $39.7 million for
powerplants, $30.6 million for concrete pipelines, $26.3 million for canals, $15.2 million for laterals and
drains, $13.3 million for primary roads, $10.9 million for pumping plants, $5.7 million for land and rights,




                                                                                                               3
       Agency Response           The response did not comment on this issue.

    2. BOR Continued To          BOR continued to index the unbuilt commercial power and
       Index Unbuilt             agricultural irrigation features that BOR was not authorized to
                                 construct. In 1992, Congress precluded BOR from constructing
       Commercial Power And
                                 any feature that was not included in the 1988 Definite Plan
       Agricultural Irrigation   Report (see Glossary) for Bonneville. Because commercial
       Features                  power was not included in the 1988 Report, Congress, in effect,
                                 eliminated that feature. At the same time, Congress transferred
                                 the responsibility for constructing the remaining irrigation
                                 facilities from BOR to CUWCD.

                                 BOR, however, continued to include Bonneville’s unbuilt
                                 commercial power and agricultural irrigation features in its cost
                                 ceiling calculations and to index the amounts for inflation. These
                                 actions had the effect of increasing Bonneville’s cost ceiling by
                                 about $63 million. At the end of fiscal year 1999, the
                                 unexpended ceiling in the commercial powerplant accounts
                                 (powerplants and electrical switch yards and substations) had
                                 increased $27.7 million (from $135,937,000 as of October 1990
                                 to $163,652,000), and the unexpended ceiling in the irrigation
                                 plant accounts (canals, laterals and drains, and pumping plants)
                                 had increased $35.2 million (from $154,802,000 as of October
                                 1990 to $190,005,000).

                                 During our review, Regional officials said they believed that
                                 using prior cost ceiling authorizations was appropriate even
                                 though individual project features, such as commercial power or
                                 agricultural irrigation for which there was remaining available
                                 ceiling, had been discontinued by subsequent legislation.
                                 Regional officials also said that it was BOR’s policy to continue
                                 to index plant accounts until the project features were formally
                                 deauthorized by Congress.

                                 A February 1976 report of the House of Representatives
                                 Committee on Government Operations, however, was critical of
                                 BOR’s practice of continuing to index discontinued project
                                 features and related plant accounts for inflation (Report No. 98-
                                 852, “Bureau of Reclamation’s Indexing Procedures Conceal
                                 Information That Water Resource Projects Are In Excess of
                                 Their Authorized Cost Ceilings”). The Committee
                                 recommended that indexing be stopped when the original
                                 estimate for an item (plant account) as indexed was exceeded by
                                 the expenditures or when the work on that item was completed.
                                 The Committee report stated that the recommended change was
                                 necessary “to help prevent the indexing process from increasing
                                 the authorized cost ceiling for factors not directly related to
                                 inflation.” The Committee’s recommendation was incorporated
                                 into BOR regulations, which state: “If the current plan and
                                 federal obligations do not include a portion of the authorized



4
                             project intent, that portion must also be eliminated from the
                             appropriation ceiling.”
     Agency Response         The response did not address this issue.
  3. BOR Did Not Record      BOR did not record expenditures of $14.6 million against the
     Expenditures of         $214.4 million increase to Bonneville’s cost ceiling authorized by
     $14.6 Million Against   Congress in 1992. Although BOR and the CUPCA Office
     The Cost Ceiling        coordinated the administration of approximately $28.9 million of
                             fish and wildlife mitigation funds since 1994, BOR did not
                             ensure that mitigation expenditures of $14.6 million were
                             included in the annual ceiling computations. Consequently,
                             BOR’s reported ceiling available for appropriation was
                             overstated by at least an additional $14.6 million.
     Agency Response         The comments agreed with our report finding that $14.6 million
                             received by the CUPCA Office had not been applied to
                             Bonneville’s cost ceiling. The Program Director and BOR’s
                             Commissioner stated that the actual appropriation amounts have
                             now been accounted for by both the CUPCA Office and BOR
                             and have been included in current cost ceiling computations.

     OIG Reply               The actions taken are sufficient to resolve this matter.

                             We also noted that similar concerns about the reliability of
History of Concerns          BOR’s cost ceiling calculations had been stated in independent
About BOR Cost               GAO and Congressional reports over the last 25 years (see
                             Appendix 3). In 1975, a GAO report questioned the reliability of
Ceiling Calculations         BOR’s cost ceiling calculations. The February 1976
                             Congressional committee report cited BOR’s procedures as
                             overstating project cost ceilings. Again in 1988 and 1992,
                             Congressional committee reports cited the difficulty in obtaining
                             reliable information on Bonneville’s costs and construction cost
                             ceiling from BOR. Internal BOR reviews of Bonneville’s cost
                             ceiling in 1994 and 1996 have also resulted in major adjustments
                             to the ceiling that had the overall effect of significantly increasing
                             the amount available for appropriation. For example, in 1994,
                             BOR identified a shortfall of between $2 million to $19 million.
                             After making significant adjustments, however, BOR reported an
                             available cost ceiling of $103.5 million in 1998.



                             During our review, we identified two other issues related to
Other Issues Related         adjustments to BOR’s cost ceiling for Bonneville that deserve
to Bonneville Cost           mention (see Appendix 4).
Ceiling Reliability            # BOR increased Bonneville’s cost ceiling by $62.4 million
                                 for general legislation costs (see Glossary) for road
                                 construction. While it is clear that BOR had the authority
                                 to expend funds for these roads, our research did not


                                                                                                      5
                                    identify any authority for BOR to increase the authorized
                                    cost ceiling for this purpose.

                                # BOR increased Bonneville’s cost ceiling by $67.6 million
                                  within the authority of Public Laws 100-563 and 102-575.
                                  We noted, however, that the increases were inconsistent
                                  with information that BOR provided to the Congress in
                                  support of the legislation.

        Agency Response and   The Acting Assistant Secretary’s response to these issues and
        OIG Reply             our reply are discussed in Appendix 4.

    Recommendation            We recommend that the Program Director of the CUPCA Office
                              not rely on BOR’s cost ceiling calculation for the Bonneville Unit
                              and discontinue using the ceiling amount as a basis for requesting
                              additional appropriations. If the cost ceiling calculation is used
                              as a basis for requesting additional appropriations, the Program
                              Director should inform Congress as to the unreliability of the
                              ceiling amount.

        Agency Response       The Acting Assistant Secretary’s response disagreed with the
                              recommendation and stated that it was appropriate for the
                              Department and the CUPCA Office to use BOR’s cost ceiling
                              calculation as a basis for requesting additional appropriations.
                              The response further stated that the CUPCA Program Director
                              would inform Congress of the “audit report’s findings,” along
                              with the underlying disagreements of the CUPCA Office and
                              BOR, and of Bonneville’s construction cost ceiling analysis.

        OIG Reply             We continue to differ with the Assistant Secretary on the
                              reliability of the cost ceiling and on the issues raised by our
                              review. Further, we believe that Congress should be informed
                              and make the final determination on whether the current cost
                              ceiling should be used as a basis for additional appropriation.
                              Therefore, we will refer the recommendation to the Assistant
                              Secretary for Policy, Management and Budget for tracking as
                              unresolved until Congressional action is taken on this issue
                              (Appendix 8).




6
Appendices
             Appendix                                                             Page

                 1      Scope of Review . . . . . . . . . . . . . . . . . . . . . . 8
                         Documents Reviewed . . . . . . . . . . . . . . . . . . 8
                         Officials Interviewed . . . . . . . . . . . . . . . . . . 8
                         Government Auditing Standards . . . . . . . . . . 8
                 2      Prior Reports Related To Calculation of
                        Authorized Construction Cost Ceilings . . . 10
                         OIG Reports . . . . . . . . . . . . . . . . . . . . . . . . 10
                         GAO Reports . . . . . . . . . . . . . . . . . . . . . . . 11
                 3      History of Concerns About and
                        Adjustments to BOR Cost Ceiling
                        Calculations . . . . . . . . . . . . . . . . . . . . . . . . . 13
                         1975 GAO Report . . . . . . . . . . . . . . . . . . . 13
                         Congressional Reports . . . . . . . . . . . . . . . . 13
                         BOR Reviews . . . . . . . . . . . . . . . . . . . . . . . 14




                                                                                                Appendix Index
                 4      Issues Related to Bonneville Cost Ceiling
                        Increases, Comments by CUPCA Office
                        Program Director and BOR
                        Commissioner, and OIG Reply . . . . . . . . . 16
                         Cost Ceiling Increases Related to
                            Including General Legislation
                            Costs in Calculations . . . . . . . . . . . . . . . 16
                         Agency Response . . . . . . . . . . . . . . . . . . . . 17
                         OIG Reply . . . . . . . . . . . . . . . . . . . . . . . . . 18
                         Cost Ceiling Increases Related to
                            Public Law 100-563 . . . . . . . . . . . . . . . . 19
                         Agency Response . . . . . . . . . . . . . . . . . . . . 20
                         OIG Reply . . . . . . . . . . . . . . . . . . . . . . . . . 20
                         Cost Ceiling Increases Related to
                            Public Law 102-575 . . . . . . . . . . . . . . . . 21
                         Agency Response . . . . . . . . . . . . . . . . . . . . 23
                         OIG Reply . . . . . . . . . . . . . . . . . . . . . . . . . 23
                 5      Excerpt from Senate Report
                        No. 102-267 . . . . . . . . . . . . . . . . . . . . . . . . . 25
                 6      Computations of Cost Ceiling Under
                        Public Laws 84-485 and 92-370 . . . . . . . . . 26
                 7      Assistant Secretary Response . . . . . . . . . . 27
                 8      Status of Audit Recommendation . . . . . . . 32




                                                                                            7
    Appendix 1
    Scope of Review

    Documents Reviewed      Our objective was to determine whether BOR
                            calculated Bonneville’s construction cost ceiling in
                            accordance with applicable laws, legislative history,
                            regulations, and BOR guidelines. To accomplish our
                            objective, we reviewed Bonneville’s definite plan
                            reports; authorizing legislation and related
                            legislative history; legal documents, such as Office
                            of the Solicitor and Comptroller General opinions;
                            BOR budget justifications; Reclamation Instructions;
                            construction cost trend indices; and BOR cost ceiling
                            calculations and applicable financial reports and
                            accounting records.

    Officials Interviewed   To obtain an understanding of and information on
                            Bonneville’s authorizing legislation and related
                            legislative history, BOR’s cost ceiling calculations
                            and practices, Reclamation Instructions, and
                            financial reports and accounting records, we
                            interviewed officials from BOR’s Upper Colorado
                            Region in Salt Lake City, Utah, which calculates
                            Bonneville’s cost ceiling; BOR’s Mid-Pacific
                            Region in Sacramento, California; the Office of the
                            Solicitor’s Pacific Southwest Region Field Office in
                            Salt Lake City; and the CUPCA Office in Provo,
                            Utah. We conducted our fieldwork at BOR’s Upper
                            Colorado Region.

    Government Auditing     Our review was conducted in accordance with the
    Standards               Government Auditing Standards, issued by the
                            Comptroller General of the United States.
                            Accordingly, we included such tests of records and
                            other auditing procedures that were considered
                            necessary to accomplish our objective. The
                            Standards require that we obtain sufficient,
                            competent, and relevant evidence to afford a
                            reasonable basis for our findings and conclusions.

                            As discussed in the Results of Review section of this
                            report, BOR did not have sufficient evidence to
                            support the historical amounts included in the cost
                            ceiling calculation. (BOR’s record-retention policy
                            requires that accounting records and supporting
                            documentation be retained for up to 6 years.)


8
                                           Appendix 1




                                                             Appendix 1
Although maintaining all cost ceiling computation
records and expenditure records over the life of
Bonneville may not have been practical, sufficient
records were needed for us to verify BOR’s cost
ceiling adjustments and satisfy the Standards.
Because records were not retained, however, we did
not have sufficient bases for relying on the amounts
included in, or for evaluating internal controls over,
the Region’s cost ceiling calculation.

As part of our review, we reviewed the
Departmental Reports on Accountability for fiscal
years 1996 through 1998, which include information
required by the Federal Managers’ Financial
Integrity Act, and BOR’s annual assurance
statements on management controls for fiscal years
1996 through 1998. Based on that review, we
determined that none of the weaknesses reported for
the Department and BOR were within the objective
and scope of our review.




                                                         9
     Appendix 2
     Prior Reports Related To Calculation




                                                                                                 Appendix 2
     of Authorized Construction Cost Ceilings

                                  Since 1975, the Office of Inspector General (OIG)
                                  and GAO have issued six reports related to cost
                                  ceilings. These reports are summarized in the
                                  following paragraphs.

     OIG Reports                  #   The July 1994 report “Cost Increases Incurred on
                                      the Hoover Dam Visitor Facilities Program, Bureau
                                      of Reclamation” (No. 94-I-915), addressed factors
         1994 Report                  that caused construction costs of visitor facilities to
                                      increase from $32 million to a projected
                                      $85.6 million. The report stated that the costs
                                      escalated because BOR did not adequately oversee
                                      or control the costs of the visitor facilities program.
                                      BOR based the original cost estimate on inadequate
                                      cost data and, after Congressional authorization,
                                      significantly increased the size and scope of the
                                      visitor center and parking facilities from the original
                                      design. In addition, although cost increases were
                                      reported in BOR’s annual budget justifications, the
                                      costs were not readily identifiable because of
                                      weaknesses in BOR’s budget control procedures,
                                      which effectively deferred reevaluation of the
                                      program by Departmental managers and Congress
                                      until the facility was substantially under construction.
                                      The report recommended that BOR revise
                                      Reclamation Instructions to ensure that individual
                                      appropriation ceilings were indexed for each project
                                      or program included within a multiproject or
                                      multiprogram authorization and were reported to
                                      Congress in annual budget justifications as the
                                      authorized spending limit for each project or
                                      program.

         1988 Report              #   The February 1988 report “Review of the Financial
                                      Management of the Colorado River Storage Project,
                                      Bureau of Reclamation” (No. 88-45), included the
                                      results of a review that addressed BOR’s procedures
                                      and practices for updating authorization ceilings.
                                      The report stated that in updating CRSP cost
                                      ceilings, BOR (1) aggregated the cost of individual
                                      projects, combining cost overruns on active projects
                                      with inactive projects where costs were below
                                      authorized ceilings, (2) indexed completed and
                                      deferred projects, and (3) included costs associated
                                      with general legislation. The report stated that these


10
                                                                             Appendix 2
Prior Reports Related To Calculation
of Authorized Construction Cost Ceilings

                                 practices precluded Congress from reevaluating the
                                 benefits of two individual projects for which




                                                                                                 Appendix 2
                                 estimated costs were expected to exceed authorized
                                 ceilings by $261 million and resulted in BOR’s
                                 overstating total CRSP Project cost ceilings by
                                 $388 million.

  1987 Report                #   The December 1987 report “Review of the Financial
                                 Status of the San Felipe Division, Central Valley
                                 Project, Bureau of Reclamation” (No. 88-18),
                                 included a review of the San Felipe Division’s
                                 authorized cost ceiling. The report stated that the
                                 Division’s cost ceiling included about $26 million of
                                 unauthorized general legislation costs and $13 million
                                 of unapproved “indexed” costs. The report stated
                                 that the Division’s authorized ceiling was overstated
                                 by about $39 million and that related estimated
                                 obligations of about $38 million in excess of the
                                 Division’s authorized ceiling were not reported to
                                 Congress.

  1986 Report                #   The April 1986 report “Review of the Status of the
                                 Central Arizona Project, Bureau of Reclamation”
                                 (No. W-WS-BOR-08-85), addressed various matters
                                 related to the financial status of the Project,
                                 including an evaluation of the procedures used to
                                 index estimated Project costs. The report stated that
                                 BOR’s computation of the Project’s fiscal year 1986
                                 appropriation ceiling included general legislation costs
                                 of about $175 million that were unsupported or
                                 questionable. The report further stated that without
                                 these costs, the computed ceiling would be only
                                 about $35 million greater than the estimated cost of
                                 the Project. The report recommended that BOR
                                 eliminate or exclude general legislation costs from all
                                 future ceiling computations unless the costs could be
                                 supported by verifiable data.

GAO Reports                  #   The July 1978 report “Improved Project
                                 Authorizations and Agency Practices Can Increase
                                 Congressional Control of Water Resources Projects”
  1978 Report                    (No. CED-78-123) stated that Congress could
                                 increase its control over the development and
                                 funding of water resources projects by incorporating
                                 a two-phase planning and construction authorization
                                 process and requiring an authorization ceiling for all

                                                                                            11
     Appendix 2
     Prior Reports Related To Calculation
     of Authorized Construction Cost Ceilings

                                      major projects. The report also stated that these
                                      controls would increase the opportunities of
                                      Congressional authorization committees to evaluate
                                      and review project planning and construction without
                                      impeding the progress of the project. In addition,
                                      the report stated that BOR and the U.S. Army Corps
                                      of Engineers needed to improve the accuracy and
                                      reliability of authorization ceiling and project cost
                                      information provided to Congress.

       1975 Report                #   The November 1975 report “Bureau of
                                      Reclamation’s Procedures and Practices for
                                      Computing Authorized Cost Ceilings and Project
                                      Cost Estimates Need Improvement” (No. RED-76-
                                      49) addressed BOR’s procedures for updating
                                      authorized cost ceilings and cost estimates. The
                                      report stated that BOR procedures allowed costs not
                                      subject to inflation to increase the authorized cost
                                      ceiling and that the procedures did not specify how
                                      non-Federal expenditures were to be treated. The
                                      report also stated that BOR misapplied its
                                      procedures for indexing authorizations and cost
                                      estimates on three projects, one of which was
                                      Bonneville. The report concluded that BOR’s
                                      procedures and practices for computing cost ceilings
                                      needed to be improved to enable Congress to rely on
                                      the information provided in BOR’s budget
                                      justifications.




12
                                                                       Appendix 3
                                      History of Concerns About and
                        Adjustments to BOR Cost Ceiling Calculations

                           Since BOR was authorized to index the cost ceiling
                           for Bonneville in 1972, GAO and Congress have
                           expressed concerns on the accuracy and reliability of
                           BOR’s calculations. In addition, BOR itself has
                           expressed concerns about the accuracy of the cost
                           ceiling and made numerous adjustments to its
                           calculations.




                                                                                          Appendix 3
1975 GAO Report            A November 1975 GAO report (No. RED-76-49–see
                           Appendix 2) questioned the reliability of BOR’s cost
                           ceiling calculations and concluded that BOR’s
                           procedures and practices for computing cost ceilings
                           needed to be improved to enable Congress to rely on
                           the information provided in BOR’s budget
                           justifications.

Congressional Reports      The February 1976, House of Representatives
                           Committee on Government Operations Report No. 94-
                           852 (“Bureau of Reclamation’s Indexing Procedures
  1976 Report              Conceal Information That Water Resource Projects
                           Are in Excess of Their Authorized Cost Ceilings”)
                           presented the Committee’s findings on three BOR
                           projects, including Bonneville. The report stated that
                           while Congress had provided BOR with latitude to
                           adjust project cost ceilings to take inflation into
                           account, BOR had “abused the discretion” given by
                           Congress. According to the report, BOR’s indexing
                           procedures, such as continuing to index costs for
                           completed work on Bonneville, had increased project
                           cost ceilings for factors not directly related to
                           inflation.

                           Of the 18 recommendations made in the report,
                           10 addressed revisions to BOR’s cost indexing
                           procedures. BOR issued Reclamation Instructions
                           that conformed with the Committee’s
                           recommendations in August 1976 and revised the
                           Instructions in February 1979 to reflect policy changes
                           in procedures for computing cost ceilings. BOR
                           rescinded all of its Reclamation Instructions in
                           September 1995 in response to the Vice President’s
                           initiative to reinvent the Government. Although BOR
                           developed a “draft” Reclamation Manual section in

                                                                                     13
     Appendix 3
                                            History of Adjustments to
                                         BOP Cost Ceiling Calculations


                        1998 that addressed the calculation of cost ceilings, it
                        continues to use the guidance provided in the February
                        1979 Instructions.

        1988 and 1992   Since issuance of the 1976 Committee report, CRSP,
        Reports         in particular Bonneville, has continued to be the
                        subject of much scrutiny by Congress. In 1988 and
                        1992, Congress expressed concerns over BOR’s
                        financial management practices, including BOR’s
                        inability to account for project costs and calculate
                        project cost ceilings accurately. Specifically, House
                        of Representatives Committee on Interior and Insular
                        Affairs Report No. 100-915, dated September 1988,
                        stated that BOR’s cost figures for CRSP, which
                        included costs of Bonneville, “have at times been
                        inaccurate and inconsistent.” In addition, Senate
                        Committee on Energy and Natural Resources Report
                        No. 102-267, dated March 1992, stated that the
                        Committee had experienced difficulties “in obtaining
                        accurate and reliable figures from the Bureau” for
                        Bonneville.

     BOR Reviews        In March 1994, the Regional Director of the Upper
                        Colorado Region established a team to determine
                        whether an increase in the ceiling was required to
        1994 Review     complete Bonneville. The team discovered errors in
                        the ceiling computations, including the following:

                          # Use of the incorrect base year for indexing costs,

                          # Incorrect calculation of base amounts,

                          # Application of Bonneville project costs to the
                            incorrect fiscal year,

                          # Not identifying “very large negative costs,”

                          # Double counting costs.

                        The team also determined that BOR’s cost estimate to
                        complete Bonneville was not reliable. The team’s
                        July 1994 report stated that Bonneville’s $1.3 billion

14
                                                            Appendix 3
                                  History of Adjustments to
                               BOP Cost Ceiling Calculations


1996 Review   cost ceiling needed to be increased by a range of
              approximately $2 million to $19 million to complete
              construction as planned.

              In 1996, Regional officials again reviewed the
              methodology and assumptions used in previous
              calculations of Bonneville’s cost ceiling. This review




                                                                               Appendix 3
              resulted in major adjustments that increased
              Bonneville’s cost ceiling, including the following:

                # Eliminating negative account balances by transferring
                  costs between accounts,

                # Eliminating preauthorization costs,

                # Revising construction cost indices, and

                # Adjusting general legislation costs.
                  (See Glossary for definition of preauthorization and
                  general legislation costs.)

              Adjustments made by BOR from 1996 to 1998
              eliminated the $2 million to $19 million cost ceiling
              shortfall calculated in 1994 and resulted in a
              remaining available ceiling of $103.5 million.




                                                                          15
     Appendix 4
     Issues Related to Bonneville Cost Ceiling Increases,
     Comments by CUPCA Office Program
     Director and BOR Commissioner, and OIG Reply


     Cost Ceiling Increases       In its ceiling computation for 1998, BOR included
     Related to Including         $62.4 million of general legislation costs, thereby
                                  increasing the authorized cost ceiling for Bonneville
     General Legislation          by that amount. The $62.4 million represented the
     Costs In Calculations        increased costs of constructing the roads around
                                  Bonneville’s Jordanelle Dam to meet the higher State
                                  of Utah standards required after the legislation
                                  authorizing Bonneville was enacted. BOR computed
                                  the general legislation costs by comparing the original
                                  1976 road construction cost estimate, indexed for
                                  inflation, with the updated 1985 road construction cost
                                  estimate to meet the higher standards. BOR
                                  determined that the 1976 estimate of $15.8 million
                                  indexed through 1985 was $30.9 million and that the
                                  1985 estimate updated to accommodate the newer
                                  State standards was $93.3 million. According to an
                                  Upper Colorado Regional official, the $62.4 million
                                  difference was the maximum amount that could be
                                  considered general legislation costs.

                                  During our review, Regional officials said that they
                                  included the $62.4 million in the cost ceiling
                                  calculations because such costs were allowable under
                                  Reclamation Instructions. Part 151.5.7 of
                                  Reclamation Instructions, issued on February 6, 1979,
                                  states:

                                     The current project cost estimate may include
                                     an amount to cover work which will be required
                                     as a result of general legislation. On projects
                                     where the price level date of the authorization
                                     estimate is prior to enactment of such legislation
                                     and/or any regulations resulting from such
                                     legislation, the appropriation ceiling can be
                                     increased to reflect costs included in the project
                                     cost estimate to accommodate the requirements
                                     of such legislation.

                                  Although the 1979 Instructions allowed general
                                  legislation costs to be included in the cost ceiling
                                  calculation, events superseded these regulations. A
                                  February 1987 Comptroller General opinion stated

16
                  that general legislation costs should not be included
                  without specific Congressional authority and that
                  BOR’s practice of including costs associated with
                  general legislation enacted after a project’s
                  authorization had no statutory basis. In addition, a
                  May 1990 letter from the Commissioner to the
                  Assistant Secretary for Policy, Management and
                  Budget stated that general legislation costs would not
                  be included in any appropriation ceilings in the future
                  “without specific authorization by Congress.” The
                  letter addressed the resolution of 1987 and 1988 OIG
                  audit report recommendations regarding the treatment
                  of general legislation costs (see Appendix 2).

                  During our review, a Regional official said she
                  believed that Public Law 93-251 (33 U.S.C. §
                  701r-1), the Water Resources Development Act,
                  which was referenced in Reclamation Instructions,




                                                                              Appendix 4
                  allowed the cost ceiling to include the increased costs
                  of constructing roads to higher standards. Another
                  Regional official believed that the general legislation
                  costs were properly included in the cost ceiling
                  because the road construction costs were incurred
                  prior to the Commissioner’s 1990 letter, which
                  officially changed BOR policy. The Regional official
                  also stated that BOR interpreted the 1990 letter as
                  meaning that no additional general legislation costs
                  should be included in the cost ceiling after May 1990
                  without statutory authority.

                  Our Office of General Counsel disagreed that
                  Title 33, United States Code, Section 701r-1,
                  authorizes BOR to include increased costs associated
                  with general legislation in the State of Utah for road
                  construction. Section 701r-1 is applicable only
                  “when the taking by the Federal Government of an
                  existing public road necessitates replacement.” In
                  regards to Bonneville, BOR was building new roads.

                  The CUPCA Office Program Director and the BOR
Agency Response   Commissioner disagreed with our conclusion that
                  BOR “inappropriately included certain general
                  legislation costs in the authorized cost ceiling.” Their
                  comments raised the following legal issues:

                     # Whether Congress’s appropriations for road
                         construction for Bonneville permitted BOR to


                                                                             17
                        include the additional construction costs associated
                        with general legislation into its cost ceiling
                        calculations,

                    # Whether the Comptroller General’s opinion that
                        general legislation costs cannot be used to increase
                        the cost ceiling of a project can be superseded by a
                        subsequent appropriations law, and

                    # Whether the May 17, 1990 letter from the BOR
                        Commissioner to the Assistant Secretary for
                        Policy, Management and Budget permits general
                        legislation costs that BOR incurred prior to May
                        1990 to be included in project cost ceilings.

                 The response stated that a Solicitor’s opinion would
                 be requested.

     OIG Reply   Our Office of General Counsel reviewed the Assistant
                 Secretary’s response and provided the following
                 reply.

                 “BOR’s reply states that it had authority to spend
                 appropriated money “to construct roads to meet higher
                 State of Utah standards which were required by the
                 Federal Highway Administration after the legislation
                 authorizing the Bonneville Unit was enacted.” We
                 agree that BOR had such authority. That, however, is
                 not the issue raised by our report. The issue relevant
                 to our finding is whether BOR had authority to include
                 the increased construction costs associated with the
                 newly enacted State legislation in its cost ceiling
                 calculations for Bonneville. BOR did not address this
                 issue, and our research revealed that BOR had no such
                 authority.

                 “The Comptroller General issued an opinion in
                 February 1987 concerning the appropriateness of
                 including increased construction costs due to general
                 legislation into cost ceiling calculations. The opinion
                 stated that general legislation costs should not be
                 included unless specifically authorized by Congress.
                 The opinion criticized BOR’s practice of including
                 general legislation costs into its cost ceiling
                 calculations because BOR has no statutory basis to do
                 so. As the opinion suggests, Congress can pass
                 legislation that permits BOR to include costs
                 associated with general legislation into its cost ceiling

18
                       calculation. BOR, however, cited no such statutory
                       authority for the Jordanelle Dam roads portion of
                       Bonneville, and our research has found no such
                       authority either.

                       “Finally, we disagree that the May 1990 letter from
                       the BOR Commissioner to the Assistant Secretary for
                       Policy, Management and Budget constituted an
                       agreement between OIG and BOR concerning the
                       inclusion of general legislation costs into BOR’s
                       computation for cost ceilings. The ‘agreement’ to
                       which BOR refers is not an agreement but rather
                       BOR’s acceptance of our recommendation that general
                       legislation costs cannot be used to increase any
                       appropriation ceilings without specific authorization
                       from Congress. Moreover, even if this were an
                       agreement between OIG and BOR, BOR violated the
                       agreement when it included the increased costs




                                                                                   Appendix 4
                       associated with general legislation in its recalculation
                       of the available cost ceiling in 1998.”

                       On October 3, 2000, the Solicitor’s Office issued two
                       memoranda related to this review. These opinions are
                       still undergoing review by our Office of General
                       Counsel.

Cost Ceiling           BOR increased Bonneville’s cost ceiling by
Increases Related to   $67.6 million within the authority of Public Laws
Public Law 100-563     100-563 and 102-575.

($5,953,000)           Public Law 100-563 provided BOR with $45,456,000
                       “for the continued construction of the Colorado River
                       Storage Project, and for the continued construction of
                       the municipal and industrial water features of the
                       Bonneville Unit.” (Emphasis added.) BOR’s request
                       for the $45,456,000 ceiling increase was included in
                       an August 5, 1988 schedule provided to the House of
                       Representatives Committee on Insular Affairs, which
                       was incorporated into House Report No. 100-915.

                       The schedule showed that $5,268,000 of the
                       $45,456,000 requested applied to features of CRSP
                       (Jensen Unit, Modifications and Additions,
                       Seedskadee Fish and Wildlife, and Wayne N.
                       Aspinall Fish and Wildlife) other than Bonneville.
                       Public Law 100-563, however, did not specify the
                       amounts authorized for specific project features,

                                                                                  19
     Appendix 4
     Issues Related to Unit Cost Ceiling Increases,
     Comments by CUPCA Office Program
     Director and BOR Commissioner, and OIG Reply

                               including Bonneville, and BOR applied the entire
                               $45,456,000 to Bonneville’s cost ceiling. The
                               inclusion of the $5,268,000 in the cost ceiling further
                               increased the ceiling by $685,000, for a total of
                               $5,953,000, because of the effects of indexing the
                               amount to 1998. (We determined the $685,000 by
                               eliminating the $5,268,000 from BOR’s 1988 base
                               amounts and recomputing the cost ceiling through
                               fiscal year 1998.)

                               The comments agreed that when Public Law 100-563
     Agency Response           was enacted in 1988, the increase of $45,456,000 was
                               to be used for continued construction of Bonneville
                               ($40,188,000) and other CRSP features ($5,268,000).
                               The comments stated, however, that BOR
                               subsequently decided to use the entire $45,456,000
                               for Bonneville and had informed Congress of this
                               decision through correspondence to Congressional
                               committees and inclusion of this information in BOR’s
                               budget justifications submitted to Congress. The
                               comments also stated that Congress acknowledged and
                               accepted the use of the $45,456,000 as evidenced by
                               Table 1 in Senate Report 102-267, which showed
                               $46,575,000 ($45,456,000 indexed to 1990 prices)
                               for Public Law 100-563.

     OIG Reply                 We reviewed 18 pages of correspondence and
                               excerpts from budget justifications provided by BOR
                               in March 2000 as evidence that it had informed
                               Congress of its decision to use the $5,268,000,
                               originally authorized for other CRSP features, for
                               Bonneville. In our opinion, the documentation was
                               not sufficient to inform Congress of BOR’s intent to
                               use the full $45,456,000. In enacting Public Law 100-
                               563, Congress relied on information supplied by BOR
                               in approving BOR’s request for $5,268,000 for other
                               features of CRSP (Jensen Unit, Modifications and
                               Additions, Seedskadee Fish and Wildlife, and Wayne
                               N. Aspinall Fish and Wildlife). The $5,268,000
                               amount, however, was not cited in the 18 pages of
                               documentation, nor could we find any evidence in the

20
                                                                       Appendix 4
Issues Related to Unit Cost Ceiling Increases,
Comments by CUPCA Office Program
Director and BOR Commissioner, and OIG Reply

                          documentation that Congress “acknowledged and
                          accepted” the use of the $45,456,000 solely for
                          Bonneville.

                          In addition, it would have been difficult to have
                          acknowledged and accepted the amount in Table 1 of
                          Senate Report 102-267 because (1) all the numerical
                          information contained in the table had been generated
                          and provided by BOR, (2) BOR reported a different
                          amount for Public Law 100-563 ($46,575,000) than
                          that originally authorized by Congress ($45,456,000),
                          and (3) BOR’s indexing formulas to reconstruct the




                                                                                     Appendix 4
                          basis for the amounts in the table were complicated.
Cost Ceiling              Public Law 102-575 authorized an increase of
Increases Related to      $214,352,000 for BOR to complete its portion of
Public Law 102-575        Bonneville. The $214,352,000 was based on a
                          schedule BOR provided to the Senate Committee on
($61,649,000)             Energy and Natural Resources, which the Committee
                          incorporated into Senate Report No. 102-267. Based
                          on Table 1 of the Senate Report (see Appendix 5), the
                          $214,351,414 (rounded to $214,352,000) consisted
                          of:

                             # $49,111,000 to cover a ceiling shortfall under
                               Public Laws 84-485 and 92-370, which
                               represented the amount by which cumulative
                               Congressional appropriations exceeded
                               Bonneville’s authorized cost ceilings
                               (appropriations of $1,084,020,000 minus the
                               reported ceiling of $1,034,909,000) (see Appendix
                               6) and

                             # A balance of $165,241,000 to complete BOR’s
                               portion of Bonneville.

                          BOR, however, included the entire $214,352,000 in
                          the cost ceiling and in doing so, realized an
                          unintended ceiling increase consisting of the
                          $49,111,000 cost ceiling shortfall. During our
                          review, Regional officials said that they believed the
                          language in Public Law 102-575 was “clear” from a

                                                                                    21
     Appendix 4
     Issues Related to Unit Cost Ceiling Increases,
     Comments by CUPCA Office Program
     Director and BOR Commissioner, and OIG Reply

                               legal standpoint in that the $214,352,000 could be
                               spent for the features identified in the Senate Report
                               and that the entire amount should be included in the
                               cost ceiling and subject to indexing. Their position
                               was based on an October 22, 1998 opinion from the
                               Office of the Solicitor’s Pacific Southwest Region,
                               which stated, in part, that the Secretary was authorized
                               to “obligate and expend” the $214,352,000 to pay for
                               features contained in the Senate Report and that the
                               $214,352,000 could be indexed.

                               Regional officials stated that the cost information used
                               in the Senate Report to determine the $49,111,000
                               ceiling shortfall was later believed to be inaccurate
                               and had been developed in “only about 30 minutes”
                               because of the limited time frame permitted during
                               passage of Public Law 102-575. The officials could
                               not reconstruct the records to support the basis for the
                               cost information, but stated that they had not advised
                               Congress that they thought the 1992 cost information
                               was incorrect.

                               The inclusion of the $49,111,000 in Bonneville’s
                               computation further increased the cost ceiling by
                               $12,538,000, for a total of $61,649,000, because of
                               the effects of indexing the amount to 1998. (We
                               determined the $12,538,000 by eliminating the
                               $49,111,000 from BOR’s 1991 base amounts and
                               recomputing the cost ceiling through fiscal year 1998.)


                               While we agree that Public Law 102-575 does not
                               preclude BOR from indexing the entire $214,352,000,
                               we believe that by indexing the entire amount, BOR
                               calculated Bonneville’s authorized cost ceiling at
                               $49,111,000 more than the amount BOR told the
                               Congress it needed to complete its portion of
                               Bonneville. We also believe that the Committee
                               sought to ensure that BOR applied the increase in
                               accordance with the Senate Report by stipulating in
                               Public Law 102-575 that the $214,352,000 be

22
                                                                          Appendix 4
Issues Related to Unit Cost Ceiling Increases,
Comments by CUPCA Office Program
Director and BOR Commissioner, and OIG Reply

                          expended “for the features identified in the Report of
                          the Senate Committee on Energy and Natural
                          Resources [Senate Report No. 102-267]
                          accompanying the bill H.R. 429.” We believe that
                          BOR should have computed the cost ceiling in
                          accordance with the information provided to and
                          subsequently used by Congress to increase
                          Bonneville’s authorization or obtained further
                          clarification of the Senate Report from the appropriate
                          Congressional committee.

                          The comments from the CUPCA Office Program




                                                                                          Appendix 4
Agency Response           Director and BOR Commissioner stated, “We
                          disagree with the IG’s legal interpretation of the
                          statute regarding the application of the $49,111,000
                          and its relationship to the $214,352,000 authorized in
                          Public Law 102-575. Our interpretation is that the
                          entire $214,352,000 is for specific features as
                          described in the Senate Report.” The comments also
                          interpreted our report as concluding that “when a
                          statute appropriates funds that exceed amounts found
                          in the authorizing statutes, a ceiling shortfall exists that
                          requires additional statutory authority to correct.”
                          The comments disagreed with this conclusion and
                          stated that a Solicitor’s opinion would be requested
                          on this issue on or before August 1, 2000.

OIG Reply                 We did not assert that additional statutory action was
                          needed to correct a ceiling shortfall when project
                          appropriations exceeded project statutory
                          authorization. Further, we agree from a legal
                          standpoint that Public Law 102-575 allowed BOR to
                          index the entire $214,352,000, which included the
                          $49,111,000 ceiling shortfall. We believe, however,
                          that BOR should have computed the cost ceiling in
                          accordance with the information provided to and
                          subsequently relied upon by Congress to increase
                          Bonneville’s authorization. In that regard, BOR
                          provided information to Congress in Table 1 of Senate
                          Report 102-267 that BOR needed only $165,241,000
                          to complete the features specified in Table 1, but

                                                                                         23
     Appendix 4
     Issues Related to Unit Cost Ceiling Increases,
     Comments by CUPCA Office Program
     Director and BOR Commissioner, and OIG Reply

                               indexed the entire $214,352,000 after passage of
                               Public Law 102-575 without informing the
                               appropriate Congressional committee. It is worth
                               noting that BOR identified the $49,111,000 amount as
                               the ceiling shortfall (project appropriations exceeding
                               authorizations) in Senate Report 102-267, not as the
                               amount needed to complete “specific features.”




24
                                                                                           Appendix 5
                                       Excerpt from Senate Report No. 102-267


              Table 1 - Bonneville Unit Cost Ceiling Tabulation

Indexed Ceiling Public Laws 84-485 and 92-370 . . . . . . . . . . . $1,034,908,840
Appropriated through October, 1990 . . . . . . . . . . . . . . . . . . . . . 1,084,020,074
   Balance Available . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ($49,111,234)       [Ceiling Shortfall]


FY 1991 section 5 [Construction Appropriation] . . . . . . . . . . .                       79,823,000
FY 1991 section 8 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    15,548,000
   [Fish, Wildlife and Recreation Appropriation]
Balance Available . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ($144,482,234)

Currant Creek Road . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         150,000
Soldier Creek . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    2,986,000
Taylor Canal Drains . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          293,037
Jordanelle Dam . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    21,446,000
Upper Provo River Improvements . . . . . . . . . . . . . . . . . . . . . . .                 8,044,501
Syar Tunnel . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    531,000
Sixth Water Aqueduct . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        32,610,514
Starvation Recreation Facilities . . . . . . . . . . . . . . . . . . . . . . . .               673,433




                                                                                                                       Appendix 5
Jordanelle Recreation Facilities . . . . . . . . . . . . . . . . . . . . . . . .            17,646,695
Mitigation Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       32,063,000
    Balance Available . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ($260,926,414)

Added Ceiling From Public Law 100-563 . . . . . . . . . . . . . . . . .               46,575,000

    Balance Available . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ($214,351,414)




                                                                                                                   25
     Appendix 6
     Computations of Cost Ceiling Under
     Public Laws 84-485 and 92-370 as of October 30, 1990

                                                           Computed Cost Ceiling
                         Plant Accounts
                                                              (In Thousands)

     Irrigation and Drainage System:
              Canals                                        $77,030
              Laterals and Drains                            43,434
              Pumping Plants                                 34,796
                  Subtotal                                              $155,260
     Power System
              Powerplants                                   126,002
              Switchyards and Substations                     5,700
                  Subtotal                                               131,702
     Other Accounts:
              Land and Rights                               $13,899
              Earth Dams                                    203,096
              Tunnels                                        88,106
              Concrete Pipelines                             76,502
              General Property                               (1,193)
              Primary Roads                                  35,821
                  Subtotal                                              $416,231
                  Total                                                 $703,193
     Noncontract Costs                                     $206,854
     Preauthorization Costs                                 $64,465
     Recreation and Fish and Wildlife                       $60,397
                  Subtotal                                               $331,716
                  Total                                                $1,034,909
     Less: Appropriations                                               1,084,020
     Appropriations in Excess of Authorized Cost Ceiling                 ($49,111)




26
                    Appendix 7
Assistant Secretary Response




                                      Appendix 6
                                      Appendix 7




                                 27
     Appendix 7
                  Assistant Secretary Response




28
                    Appendix 7
Assistant Secretary Response




                                      Appendix 7




                                 29
     Appendix 7
                  Assistant Secretary Response




30
                    Appendix 7
Assistant Secretary Response




                                      Appendix 7




                                 31
     Appendix 8
     Status of Audit Recommendation




        Recommendation       Status                Action Required
                  1        Unresolved   Referred to Assistant Secretary for
                                        Policy, Management and Budget for
                                        resolution to be tracked as unresolved
                                        until Congressional action is taken on
                                        this issue.
                                        .




32
                             MISSION STATEMENT
                                 The Office of Inspector General conducts and supervises audits and
                                 investigations of Departmental operations and programs to:

      Promoting                        #      Promote the economy, efficiency, and effectiveness of
      Economy,                                Departmental programs, and
      Efficiency, and                  #      Prevent and detect fraud, waste, and abuse in
      Effectiveness                           Departmental programs and operations.

                                To accomplish our mission, we:

                                       #     Advise agency officials and Congress of changes needed
                                             in Departmental operations,
     Through                           #     Provide guidance on existing and proposed legislation
     Detection,                              and regulations relating to agency operations,
     Reporting, and                    #     Refer information to the U.S. Attorneys for possible
     Monitoring                              prosecution.
                                       #     Report to Congress on actions taken to correct reported
                                             problems.




HOW TO REPORT FRAUD, WASTE, AND ABUSE
Fraud, waste, and abuse in Government is the concern of everyone–Office of Inspector General
staff, Departmental employees, and the general public. We actively solicit allegations of any
inefficient and wasteful practices, fraud, and abuse related to Departmental operations and
programs. You can report allegations to us by:

               MAIL                                 PHONE                               INTERNET

    U.S. Department of the Interior        Our 24-Hour toll-free number:   www.oig.doi.gov/hotline_form.html
     Office of Inspector General                1-800-424-5081
        Mail Stop 5341-MIB                 Washington Metropolitan Area:
        1849 C Street, N.W.                       202-208-5300
       Washington, DC 20240                  Northern Pacific Region:
                                                  671-647-6060
                                                Caribbean Region:
                                                  703-235-9221
                                                      Fax:
                                                  202-208-6023
                                                Hearing Impaired:
                                                  202-208-2420
